                            OFFICE OF THE INSPECTOR GENERAL
                            CORPORATION FOR NATIONAL AND
                                  COMMUNITY SERVICE




                               PRE-AUDIT SURVEY OF THE
                             PENNSYLVANIA COMMISSION ON
                           NATIONAL AND COMMUNITY SERVICE

                                  OIG Audit Report Number 00-14
                                       November 18, 1999




                                             Prepared by:

                                             KPMG LLP
                                        2001 M Street, N.W.
                                       Washington, DC 20036

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # 5-9-G-8-0022
                                          Task # B9G8V103




This report was issued to Corporation management on March 28, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than September 28, 2000, and complete its corrective actions by March 28,
2001. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                                                                         CORPORATION

                                 Office of Inspector General                             FOR NATIONAL
                       Corporation for National and Community Service

                                Pre-Audit Survey of the
               Pennsylvania Commission on National and Community Service
                             OIG Audit Report Number 00-14

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of ArneriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and fhding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including ArneriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue areport to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged KPMG LLP to perform the pre-audit survey of the Pennsylvania Commission on
National and Community Service. KPMGJsreport, which follows, includes recommendations for
improvements, including increased staf$ng, at the Commission, oversight by the Corporation for
National Service, and a limited-scope audit of the Commission by OIG. W e have reviewed the
report and work papers supporting its conclusions, and we agree with the findings and
recommendations presented. The Pennsylvania Commission's response is included as appendix C.



                                                                                      Inspector General
                                                                                      1201 New York Avenue, NW
                                                                                      Washington, DC 20725
                                              Pre-Audit Survey of the
                                           Pennsylvania Commission on
                                          National and Community Service
                                                 Table of Contents



RESULTS IN BRIEF ............................................................................................................... . . .1

BACKGROUND .............................................................................................................................
                                                                                                                                      2

OVERVIEW OF THE PENNSYLVANIA COMMISSION ...........................................................
                                                                                                 3

OBJECTIVES, SCOPE, AND METHODOLOGY ................................ ....... . . . . . . ... . ........ . . . .3

FINDINGS AND RECOMMENDATIONS ................................................................................
                                                                                                           . . .5

APPENDIX A, COMMISSION FUNDING: 1996-97 THROUGH 1998-99 ............................. A. 1

APPENDIX B, DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY .............................. . . . ..... ... . . . . . . . .. . .. . .                  . . . . . . . . ...... .   B .1

APPENDIX C, PENNSYLVANIA COMMISSION ON NATIONAL AND COMMUNITY
   SERVICE RESPONSE ........... ................................................................................... ............C. 1
           2001 M Street, N.W.
           Washington, DC 20036




November 18, 1999



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a pre-audit survey of the Pennsylvania Commission on
National and Community Service. The primary purpose of this survey was to provide a
preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including ArneriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees.

    The Commission has developed and implemented procedures that are intended to provide
    reasonable assurance that grant funds received from the Corporation are properly
    administered. However, insufficient staffing exists to perform all required duties in an
    effective manner.

    The Commission's controls in place to evaluate and monitor subgrantees provide reasonable
    assurance that subgrantees comply with legal, reporting, financial management and grant
    requirements. However, the Commission's on-site monitoring procedures do not include
    documenting which subgrantees' financial systems, AmeriCorps Member timesheets, or
    expense documentation were examined during site visits.

    The Commission has adequate controls in place to provide reasonable assurance that training
    and technical assistance is made available and provided to subgrantees.




-1111        KPMG LLP KPMG LLP a U S l m ~ t e dliability partnershp, s
             a rnernber of KPMG Internatonal, a S w s s assocatton
The section below entitled Findings and Recommendations describes the weaknesses noted
above, and other issues noted during the survey, in detail.

Based on our preliminary assessments, we recommend the performance of a limited scope audit
at the Commission for program years 1995-96 through 1998-99, with a focus on the process for
evaluating and monitoring subgrantees.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Pennsylvania Commission on National and Community Service.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited fkom directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and that provide effective
control and accountability for all grant and subgrant cash, real and personal property, and other
assets.
ma
Overview of the Pennsylvania Commission

The Pennsylvania Commission on National and Community Service, located in Harrisburg,
Pennsylvania, has received AmeriCorps grant funds from the Corporation for National and
Community Service since program year 1994-95. It operates as part of the Pennsylvania
Department of Labor and Industry under the Commonwealth of Pennsylvania. The Commission
currently has six full-time staff consisting of an Executive Director, two Program Officers, one
Grants Officer, one Program Assistant, and one Administrative Assistant.

As part of the Pennsylvania Department of Labor and Industry, the Commission is annually
subject to statewide OMB Circular A-133 audits. However, the Corporation grants have never
been tested as major programs.

The Commission provided us with the following information for the last three program years:

                                                                      Number of Sub-
                                                                     grantees Subject to
                             Total Corporation       Number of          A-133 Audit
        Program Year              FundlnR            Subgsantees       Requirements*




*   Determination is based solely on dollar value of federal awards passed through the
    Commission for the program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional federal grant funds from other sources.

Appendix A contains more detailed information on funding received from the Corporation during
program years 1996-97 through 1998-99.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission;
    the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
    Member activities and service hours; and
    the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.
MrnB
 Our survey included the following procedures:

    reviewing applicable laws, regulations, grant provisions, the Corporation's State Commission
    Reference Manual, and other information to gain an understanding of legal, statutory and
    programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;

     obtaining information from Commission management to complete flowcharts documenting
     the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
     99; and

     performing the procedures detailed in Appendix B over the Commission's internal controls,
     selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
     and the technical assistance process.

 As part of the procedures performed, we documented and tested internal controls in place at the
 Commission using inquiries, observations, and examination of a limited sample of source
 documents. Finally, we summarized the results of our work to develop the findings and
 recommendations presented in this report. We discussed all findings with Commission
 management during an exit conference on November 18, 1999.

 Our procedures were performed in accordance with Government Auditing Standards issued by
 the Comptroller General of the United States. We were not engaged to, and did not, perform an
 audit of any financial statements, and the procedures described above were not sufficient to
 express an opinion on the controls at the Commission, or on its compliance with applicable laws,
 regulations, contracts and grants. Accordingly, we do not express an opinion on any such
 financial statements, or on the Commission's controls or compliance. Had we performed
 additional procedures, other matters might have come to our attention that would have been
 reported to you.

 We provided a draft of this report to the Commission and the Corporation. The Commission's
 response to our findings and recommendations is included as Appendix C. The Corporation did
 not respond in writing to our findings and recommendations within the 30-day comment period.
m a
 Findings and Recommendations

 Selecting Subgrantees

 According to A Reference Manual for Commission Executive Directors and Members, section
 3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
 selecting applicants for potential funding." The Commission administers an open, competitive
 process to select national service subgrantees. Application reviewers sign conflict of interest
 statements before the commencement of the annual selection process. Application reviewers
 receive an instruction package and use a standard form to evaluate each applicant.
 We identified no significant areas for improvement within this process.

 Administering Grant Funds

 As part of the grant administration process, "Commissions must evaluate whether subgrantees
 comply with legal, reporting, financial management and grant requirements and ensure follow
 through on issues of non-compliance" ( A Reference Manual for Commission Executive Directors
 and Members, section 4.3).

 The Commission has developed and implemented procedures that are intended to provide
 reasonable assurance that grant funds received from the Corporation are properly administered.
 Procedures are in place to withhold funding payments if subgrantees do not submit Financial
 Status Reports (FSRs) timely, manage cash draw downs and disbursements to subgrantees, and
 ascertain whether subgrantees have met their matching requirements. However, we identified the
 following areas for improvement related to the evaluation of subgrantee compliance with
 reporting and grant requirements.

         Adequacy of Staffing Levels

 Sufficient staffing does not exist to perform all required duties in an effective manner. Staffing
 levels have declined from 12 personnel in program year 1994-95 to six personnel in program year
 1998-99, although the workload has remained relatively constant. The current personnel appear
 to have adequate slulls and experience to manage the Corporation grant funds, and one additional
 management level position has been added beginning in calendar year 2000. However,
 additional increases in funding andlor subgrantees without a corresponding increase in personnel
 could result in potential control weaknesses or instances of material noncompliance related to the
 Corporation programs because of a potential inability to properly administer the grants and
 monitor all subgrantees.

         Timeliness of Receipt of Progress Reports

 Prior to October 1999, the Commission did not keep track of when initial quarterly progress
 reports from subgrantees were received. Therefore, the Commission could not routinely verify if
 these documents were submitted timely in compliance with the grant agreement. As a result,
 subgrantee progress reports may have been submitted late.
        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its grant
administration process as follows:

    Evaluate its current resources available and the needs of the Corporation's programs to
    determine the staffing levels necessary to effectively monitor and evaluate each subgrantee.
    The Commission should then request additional resources from the Commonwealth of
    Pennsylvania's Office of Administration, as needed.

    Implement procedures to maintain a log to monitor the receipt of progress reports, review the
    log prior to expected due dates, on a monthly basis, and take necessary action when reports
    are not received on a timely basis. Commission personnel should consider sending reminder
    notices to subgrantees to improve the likelihood of timely receipt of reports.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. As part of the process of determining the site visit schedule,
Commission personnel assess the level of risk of noncompliance at each subgrantee.

We identified the following areas for improvement related to the evaluation and monitoring of
subgrantees.

        Documentation of Subgrantees ' Financial Systems, AmeriCorps Member Timesheets,
        and Expense Documentation Examined during Site Visits

Commission personnel do not specifically document the subgrantees' financial systems,
AmeriCorps Member timesheets, or expenses examined during site visits. In addition, the
sample sizes used and the rationale behind these samples are not documented. As a result, a
reviewer (e.g., supervisor) of the site visit documentation is not able to (1) assess if the sample
size selected was adequate and (2) review the same documentation if a question arose about the
results of the test.

        Schedule of Planned and Actual Site Visit Dates

The Commission does not maintain a schedule of planned and actual dates for site visits for each
program year. Without documentation of when site visits will occur and have occurred, the
Commission could overlook a particular site visit or not perform site visits timely.

        Written Policies and Procedures Related to Follow-up on Deficiencies Noted at
        Subgrantees

The Commission does not have written policies and procedures to ensure that subgrantees correct
deficiencies that are identified by the Commission. As a result, the Commission may not
properly or timely ensure the correction of noted subgrantee deficiencies.
mml
        Verifiing Information on Progress Reports at Site Visits

The Commission does not formally verify information provided on subgrantees' progress reports
as part of their annual or detailed financial site visits. Therefore, the Commission can not
routinely determine if these submitted reports are consistent with site visit observations. As a
result, inaccurate information in subgrantees' reports may exist and not be detected timely.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

    Develop and implement procedures to document the subgrantees' financial systems, Member
    timesheets, and expense items reviewed during site visits. A proforma site visit
    questionnaire may assist in this regard.

    Maintain a clear, concise schedule of site visits to be performed in the program year and a
    record of when site visits are actually performed. A person other than the employee
    responsible for performing site visits should periodically review this schedule to ensure the
    schedule is complete and that site visits are being performed timely and according to
    Commission policy.

    Develop and implement written policies and procedures to ensure that adequate corrective
    actions are taken timely when deficiencies are noted by the Commission.

    Establish and implement formal procedures to verify the accuracy of subgrantee quarterly
    progress reports and document the verification results. In addition, the Commission should
    document which data is requested and obtained to support the accuracy of the progress
    report.

 Providing Technical Assistance

 Annually, the Commission receives grant funds to provide technical assistance to its subgrantees.
 Procedures are in place at the Commission to (1) identify training needs of subgrantees through
 training evaluation and feedback forms and a needs assessment survey; (2) notify subgrantees of
 training programs; and (3) provide needed training to subgrantees. Although funding is limited
 to address the training needs of Commission staff, they attend the training sessions provided to
 subgrantees. We identified no significant areas for improvement within this process.



 This report is intended solely for the information and use of the Office of the Inspector General,
 the management of the Corporation for National and Community Service, the management of the
 Pennsylvania Commission on National and Community Service, and the United States Congress
 and is not intended to be and should not be used by anyone other than these specified parties.
                                 Commission Funding                           Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over
the past three program years. For the Formula and Competitive Grant Funds and the Learn &
Serve Grant Funds, we were unable to agree the funding amounts to the Commission's FSRs for
(a) 1998-99 because the final FSR for the program year had not been completed at the time of
field work, and (b) previous program years because those FSRs had been prepared on a
cumulative, not program year, basis. For all other grant funds, we agreed the amounts to the
FSRs for the corresponding years.


         Funding Source and Type

         CNS Formula Grant Funds

         CNS Competitive Grant Funds

         CNS Education Awards

         CNS Learn and Serve

         CNS America Reads

         CNS Other

         CNS PDAT Funds

         CNS Administrative Funds

         State Matching Funds

           Total Funding
                             Commission Funding                                           Appendix A




                  Corporation for National Service
                          Funding to the
    Pennsylvania Commission on National and Community Servic
                             1996- 1997
I                                                                                     I

                            I                               I
      Formula           Competitive      Learn and       PDAT             All Other
       Funds              Funds            Serve         Funds             Funds
                                          Funds
     $2,309,591          $215,914        $167,906        $33,562          $334,999




          7                 v                v              v                 v

         Total Corporation Funds Available to the Commission
                             $3,061,972




                        Funds Awarded to Subgrantees
                                $2,693,4 11
P




            v                                                             v
         Formula                        Competitive
       Subgrantees                      Subgrantees                  Subgrantees
        $2,309,591                        $215,914                     $167,906
     # of subgrantees                 # of subgrantees             # of subgrantees
            9                                 1
        # of sites                        # of sites
           133                               20
                        Commission Funding                                        Appendix A




              Corporation for National Service
                      Funding to the
Pennsylvania Commission on National and Community Service
                                 1997-1998

       I               I                I               I             I




C 4Formula
    Funds

 $2,968,529
                   Competitive
                     Funds
                                    Learn and

                                      Funds
                                     $9 1,063
                                                     Funds

                                                    $155,519




     Total Corporation Funds Available to the Commission
                         $4,394,923
                                                                   All Other
                                                                    Funds

                                                                   $343,493




                   Funds Awarded to Subgrantees
                           $3;895,911



    Formula                        Competitive                 Learn and Serve
  Subgrantees                      Subgrantees                   Subgrantees
  $ 2,968,529                        $836,319                      $9 1,063
# of subgrantees                 # of subgrantees              # of subgrantees
        9                                2                            10
    # of sites                       # of sites
       109                              71
                        Commission Funding                                   Appendix A




                Corporation for National Service
                        Funding to the
  Pennsylvania Commission on National and community Service
                          1998-1999
 I
           I           I                            I           I
       Formula     Competitive     Learn and     PDAT        All Other
        Funds        Funds           Serve       Funds        Funds
                                     Funds
      $2,736,369    $861,549        $91,063     $57,553      $299,697




          v            v              r            v            v
  I                                                                      I
         Total Corporation Funds Available to the Commission
                             $4,046,23 1




  I                 Funds Awarded to Subgrantees                         I

    Formula          Competitive          Learn and Serve
  Subgrantees        Subgrantees            Subgrantees        Subgrantees
   $2,736,369                                 $9 1,063           $122,917
# of subgrantees   # of subgrantees       # of subgrantees   # of subgrantees
        9                                                            2
    # of sites        # of sites
                           Detailed Engagement Objectives
                                  and Methodology                                 Appendix B

Internal Controls


Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; equipment and real
property management; matching; period of availability of Corporation funds; procurement and
suspension debarment; and reporting by the Commission to the Corporation. We then
interviewed key Commission personnel to assess the Commission's controls surrounding these
requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to malung the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
application reviewers annually and maintained by the Commission.

Administering the Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and slull mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B
   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission had implemented the Web Based Reporting System
(WBRS) and reviewed the Commission's organizational structure and staffing levels for
adequacy.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to implement a comprehensive, non-duplicative evaluation and monitoring
    process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-1 33 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
                           Detailed Engagement Objectives
                                  and Methodology                                 Appendix B

selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-1 33 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they properly related to training activities that were made available to all subgrantees.
                                                                            Appendix C




                                                                                     FAX:   n7-705-4215



                                        March 8,2000




Louis S. Jordan
Inspector General
corporation for National Service
1201 New York Avenue, NW
Washington, D.C. 20525

Dear Inspector General Jordon:

       Attached to this letter are comments to the draft report on the pre-audit survey of
PennSERVE, Pennsylvania State Commission on Community Service. I have also attached a
comection to an error found in the draft report.

       If you have any questions on the information provided, please call me at 7 17-787- 1971.




                                                           K!+JEN S. FLEISHER
                                                           Executive Director

Attachments (2)
                                                                              Appendix C
        PennSERVE'S RESPONSE TO FINDINGS AND RECOMMENDATIONS
             OF THE DRAFT REPORT ON THE PRE-AUDIT SURVEY
                OF THE PENNSYLVANIA STATE COMMISSION


Selecting Subgrantees

The Commission agrees with this finding.

Administering Grant Funds

       Adequacy of Stafing Levels

The Commission agreed with this finding. On February 7,2000, an additional permanent staff
person began work as an Administrative Officer 11.

       Timeliness of Receipt of Progress Reports

Initially this finding was correct. However, in October 1999 the Commission began to track the
receipt of all progress reports from subgrantees. In addition, the Commission will make the
failure of the timely filing of progress reports by subgrantees subject to the same withholding of
reimbursements of subgrantees as is currently in effect for the failure to file timely FSRs.

A notice of due dates for progress reports and FSRs has been provided since 1994 to all
subgrantees in the form of a yearly calendar distributed by the state commission to all
subgrantees in October of each year and for the past year a two weeks notice is also given
through the PennSERVE onelist, an e-mail system which is utilized by all AmeriCorps State
subgrantees.

Evaluating and Monitoring Subgrantees

       Documentation ofsubgrantees ' Financial Systems, AmeriCorps Member Timesheets, and
       Expenses Documentation Examined during Site Visits

Commission staff will begin to specifically document these areas during site visits. However,
since 1998, the Commission has and will continue to utilize the services of the Labor, Education
and Community Services Comptroller's Office (LECS) to conduct site visits of AmeriCorps
programs. These engagements are conducted in accordance with Generally Accepted
Government Auditing standards, regulations promulgated by OMB Circulars, ArneriCorps
Program Application Guidelines and the Program Director's Handbook. The review Includes
tests of the accounting records, internal controls and verification of the revenues, matching
requirements, accruals, expenditures and other tests considered by the accountants to be
necessary.
                                                                              Appendix C
       Schedule of Planned and Actual Site Visit Dates

The Commission will maintain a yearly log of planned and actual site visits. The dates of visits
may be subject to change for a variety of reasons such as a subgrantee has hired a new director or
a problem has been identified which would require immediate action through a site visit
conducted by the Commission. All subgrantees have and will continue to receive a letter from
the commission after a site outlining any areas of concern or of exemplary performance. All site
visits conducted by the accountants of the LECS Audit Division are scheduled in the preceding
year through a cooperative agreement between the Commission and the auditors. An
engagement letter is sent to the subgrantee notifying them of the upcoming review by the
auditors.

       Written Policies and Procedures Related to Follow-up on Deficiencies Noted at
       Subgrantees

The Commission is currently working on the development of written policies and procedures to
ensure subgrantees correct deficiencies found by the Commission. In addition, LECS Audit
Division requires that entities under review by the auditors of the Governor's Budget Office
respond with a corrective action plan within 60 days of the issuance of the LECS auditors' report
on the subgrantee. The resolutions of the LECS engagements ultimately fall under the
Commission responsibility umbrella since the report is issued to the Commission. Corrective
action plans are reviewed and determination is made as to whether hrther resolution is required.

        VeriJLingInformation on Progress Reports at Site Visits

The commission concurs with this finding and will develop written procedures to judgmentally
select and test observations included in progress reports to determine the accuracy of the
information included by the subgrantee in the report.
                                                                            Appendix C
            PennSERVE'S CORRECTIONS AND CLARIFICATIONS TO
       PRE-AUDIT SURVEY OF THE PENNSYLVANIA STATE COMMISSION


On page 3 of the draft report on the pre-audit survey of the Pennsylvania State Commission it
states "Number of Subgrantees Subject to A- 133 Audit Requirements*". The State Commission
was asked to provide audits for a specific sample size. At no time did the staff of the State
Commission indicate that these were the only audits on file or the only programs subject to A1 33
audits.
